March 28, 2002

KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SUBJECT: 	Management Advisory – Postal Service Supplier Demographics
          (Report Number CA-MA-02-001)

This report presents the results of our review of the Postal Service’s Supplier
Demographics (Project Number 00RA010CA001). This review was self-initiated as part
of a request from the Governors to review the Postal Service Supplier Diversity
Program. This is the third report addressing supplier diversity. Our primary objective
was to determine if Postal Service minority-owned and woman-owned supplier statistics
were consistent with national business supplier diversity statistics at the ethnic group
level.

We were unable to determine if the Postal Service’s minority-owned and woman-owned
supplier statistics were consistent with national business supplier diversity statistics at
the ethnic group level because minority-owned supplier contract records did not always
include ethnic level data. Therefore, we conducted our review on the overall categories
of minority-owned and woman-owned businesses. These results showed the Postal
Service was generally consistent with national business demographics regarding the
total percentage of dollars awarded. However, the Postal Service was not consistent
with national business demographics regarding the percentage of minority-owned and
woman-owned suppliers awarded contracts.

We recommended management require contracting officers to input ethnic codes for
minority-owned suppliers in procurement databases and use national business
demographics data as a tool when assessing diversity of its supplier base and
identifying market opportunities. Management agreed with our recommendations but
questioned the accuracy of Postal Service dollars and number of suppliers used, and
the methodology used in the comparative analysis. We pointed out that the dollars and
number of suppliers used in our analysis were derived from Postal Service procurement
databases and that the comparisons were appropriate. Overall, management’s
corrective actions are responsive to our recommendations. Management’s comments
and our evaluation of these comments are included in this report.
The Office of Inspector General (OIG) considers recommendation 1 significant and,
therefore, requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective action(s) are completed. This recommendation
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions, please contact Lorie Siewert, director, Contracts and
Facilities, at (651) 855-5856 or me at (703) 248-2300.



John M. Seeba,
Assistant Inspector General
  for Financial Management

Attachment

cc: 	Governors
     Richard J. Strasser, Jr.
     Benjamin P. Ocasio
     Rudolph K. Umscheid
     Susan M. Duchek
Postal Service Supplier Demographics                                        CA-MA-02-001




                                  TABLE OF CONTENTS

Executive Summary                                                                 i


Part I

Introduction                                                                      1


   Background                                                                     1

   Objectives, Scope, and Methodology                                             1

   Prior Audit Coverage                                                           2


Part II

Audit Results                                                                     4


   Minority-owned Supplier Contract Records Did Not Always Include Ethnic         4

    Level Data

   Recommendation                                                                 4

   Management’s Comments                                                          5

   Evaluation of Management’s Comments                                            5


   Supplier Base Not Consistent With National Business Demographics               6

    for Number of Suppliers

   Recommendation                                                                 8

   Management’s Comments                                                          8

   Evaluation of Management’s Comments                                            9


Appendix A.     Methodology                                                     10

Appendix B.     Analysis of Minority Ethnic Code Usage                          12

Appendix C.     Comparisons by State                                            13

Appendix D.     Comparisons by Postal Service Areas                             17

Appendix E.     Comparisons by Industrial Sector                                19

Appendix F.     Management’s Comments                                           20





                                       Restricted Information
Postal Service Supplier Demographics	                                              CA-MA-02-001



                                  EXECUTIVE SUMMARY
 Introduction	                 At the request of the Board of Governors, the Office of
                               Inspector General (OIG) reviewed different aspects of the
                               Postal Service Supplier Diversity Program and made
                               recommendations for improvement. This review was self­
                               initiated as part of the overall request from the Governors to
                               review the Postal Service Supplier Diversity Program.

                               This is the third report addressing supplier diversity. The
                               primary objective of this audit was to determine if Postal
                               Service minority-owned and woman-owned supplier
                               statistics were consistent with national business supplier
                               diversity statistics at the ethnic group level.

 Results in Brief	             We were unable to determine if the Postal Service minority­
                               owned and woman-owned supplier statistics were
                               consistent with national business supplier diversity statistics
                               at the ethnic group level. This occurred because minority­
                               owned supplier contract records did not always include
                               ethnic level data. Therefore, we conducted our review on
                               the overall categories of minority-owned and woman-owned
                               businesses. The results showed the Postal Service was
                               generally consistent with national business demographics
                               regarding the total percentage of dollars awarded to
                               minority-owned and woman-owned suppliers. However, the
                               Postal Service was not consistent with national business
                               demographics regarding the percentage of minority-owned
                               and woman-owned suppliers awarded contracts.

                               In addition, the Postal Service did not use national business
                               demographics data as a tool when assessing diversity of its
                               supplier base and identifying market opportunities. As a
                               result, the Postal Service cannot assess its supplier base as
                               business demographics change within the American
                               economy. National business demographics data could
                               assist the Postal Service in assessing its minority-owned
                               and woman-owned supplier representation and foster
                               opportunities to maintain or increase revenue from these
                               sources.




                                                   i
                                        Restricted Information
Postal Service Supplier Demographics	                                             CA-MA-02-001




 Summary of 	                  We recommended management require contracting officers
 Recommendations	              to input ethnic codes for minority-owned suppliers in
                               procurement databases and use national business
                               demographics data as a tool when assessing diversity of its
                               supplier base and identifying market opportunities.

 Summary of                    Management agreed with all of our recommendations but
 Management’s                  did not agree with all of our findings and conclusions.
 Comments                      Management questioned the accuracy of Postal Service
                               dollars and number of suppliers used in our comparisons.
                               In addition, management did not believe the comparison
                               with national business demographics to be appropriate
                               because the OIG did not adjust the statistics for firms with
                               few or no employees. Management’s comments, in their
                               entirety, are included in Appendix F of this report.

 Overall Evaluation of         Management’s actions, planned or taken, are responsive to
 Management’s                  our recommendations and should correct the issues
 Comments                      identified in the findings. We disagree with management’s
                               assertions regarding the accuracy of the data and the
                               methodology used for the comparisons. The dollars and
                               numbers of suppliers used in our analysis were derived from
                               Postal Service procurement databases. Additionally,
                               comparison with national business demographics was
                               appropriate. To be comparable, we did not adjust national
                               business demographics for few or no employees because
                               we could not do the same for Postal Service data.




                                                   ii
                                        Restricted Information
Postal Service Supplier Demographics                                                 CA-MA-02-001



                                         INTRODUCTION
    Background                   The Department of Commerce, United States Census
                                 Bureau Economic Census is the major source of facts about
                                 the structure and functioning of the nation’s economy. It
                                 provides essential information for government, business,
                                 industry, and the general public. Some uses of the data
                                 include locating potential markets, analyzing performance,
                                 and keeping informed of market changes. It reported that
                                 minority-owned businesses grew more than four times as
                                 fast as United States businesses overall between the
                                 years 1992 and 1997,1 and the number of woman-owned
                                 firms increased 16 percent between 1992 and 1997, almost
                                 triple the rate for all United States businesses.2

                                 The Postal Service places value in doing business with
                                 minority-owned and woman-owned businesses. According
                                 to the Postal Service Supplier Diversity Plan, if the Postal
                                 Service is going to succeed, it must take full advantage of
                                 all resources available. The plan recognizes that minority
                                 and woman-owned suppliers are driving the growth in the
                                 American economy, and in doing so, many of these
                                 suppliers use the Postal Service as their carrier of choice.
                                 The plan also recognizes minority-owned and woman­
                                 owned suppliers’ growth may mean additional revenues for
                                 the Postal Service. 3

    Objectives, Scope,           Our primary objective was to determine if Postal Service
    and Methodology              minority-owned and woman-owned supplier statistics were
                                 consistent with national business supplier diversity statistics
                                 at the ethnic group level.

                                 First, we extracted all fiscal year (FY) 2001 minority contract
                                 records from Postal Service’s Facilities, Supplies, Services,
                                 and Equipment, and Highway Transportation Purchasing
                                 systems to determine if the records contained ethnic codes.
                                 We found ethnic level data did not always exist. As a result,
                                 we conducted the review on the overall categories of
                                 minority-owned and woman-owned businesses.

                                 To continue the review on minority-owned and woman­
                                 owned businesses, we obtained, compiled, sorted, and


1
  United States Department of Commerce News Release dated July 12, 2001.
2
  United States Department of Commerce News Release dated April 4, 2001.
3
  Supplier Diversity Plan, Fiscal Years 1999-2003 dated January 1999.

                                                     1
                                         Restricted Information
Postal Service Supplier Demographics	                                                              CA-MA-02-001



                                  compared Postal Service FY 1999 contract data4 to national
                                  business demographics data from the Department of
                                  Commerce Economic Census.

                                  We conducted analyses by state, Postal Service area, and
                                  industrial sector for two diversity groups: women and
                                  minorities. For each combination of analysis group and
                                  diversity group, we calculated the ratio between Postal
                                  Service diversity group suppliers and Postal Service total
                                  suppliers. We also calculated the corresponding ratio for
                                  national business demographics suppliers. For each
                                  combination, we compared the Postal Service ratio to the
                                  national business demographics ratio to determine if the
                                  Postal Service minority-owned and woman-owned supplier
                                  statistics were consistent with national business supplier
                                  diversity statistics. Our detailed methodology is in
                                  Appendix A. Data and resulting ratios are included in
                                  Appendices C, D, and E.

                                  We conducted this review between August 2001 and
                                  March 2002 in accordance with the President’s Council on
                                  Integrity and Efficiency, Quality Standards for Inspections.
                                  We discussed our conclusions and recommendations with
                                  appropriate management officials and included their
                                  comments, where appropriate.

    Prior Audit Coverage	         On September 30, 1998, the Office of Inspector General
                                  (OIG) issued a report on Supplier Diversity and Minority
                                  Contracting (Report Number CA-MA-98-003) that examined
                                  Postal Service contracts with minority businesses. The
                                  review disclosed: (1) the Postal Service did not enforce its
                                  requirement that contractors submit subcontracting plans
                                  that encourage and include minority contracts; (2) the Postal
                                  Service did not meet FY 1998 supplier diversity targets for
                                  minority contract awards; (3) minority contract awards
                                  declined from FY 1994 to 1995, increased from FY 1995 to
                                  1996 and then declined again from FY 1996 to 1997; and
                                  (4) the Postal Service did not address all supplier diversity
                                  recommendations from the Aguirre International Study.
                                  Management generally agreed with the findings and took




4
 Contract data included Supplies, Services, and Equipment Purchases; Facilities Purchases; Transportation
Purchases (air, rail, water, and highway); and credit card purchases.

                                                        2
                                           Restricted Information
Postal Service Supplier Demographics                                             CA-MA-02-001




                               adequate corrective actions. The Postal Service indicated
                               all recommendations from the Aguirre International Study
                               were addressed; however, they did not adopt all of the
                               recommendations.

                               On September 6, 2001, the OIG issued an audit report on
                               the Supplier Diversity Program for Supplies, Services, and
                               Equipment Purchases (Report Number CA-AR-01-005).
                               This audit assessed the reliability of FY 1999 supplier
                               diversity statistics for supplies, services, and equipment
                               purchasing and Postal Service effectiveness in achieving its
                               supplier diversity spending plan. The audit disclosed
                               supplier diversity statistics for FY 1999 were unreliable and
                               the Postal Service was not always effective in achieving its
                               supplier diversity spending plan. Management generally
                               agreed with the recommendations and stated they were
                               taking corrective actions.




                                                 3
                                       Restricted Information
Postal Service Supplier Demographics	                                              CA-MA-02-001




                                        AUDIT RESULTS
 Minority-owned                Minority-owned supplier contract records did not always
 Supplier Contract             include ethnic level data. Specifically, about 50 percent of
 Records Did Not               minority-owned supplier contract records in the Facilities
 Always Include                and Supplies, Services, and Equipment Systems did not
 Ethnic Level Data             include ethnic codes. (See Appendix B)

                               Section 3.2.4 of the Purchasing Manual states purchases
                               made from small, minority, and woman-owned businesses
                               must be coded by socioeconomic classification, which
                               includes ethnic classification. However, Postal Service
                               contracting officers did not always input ethnic level data for
                               minority-owned suppliers in procurement database records.
                               This occurred because Postal Service policy does not
                               specifically require contracting officers to input these codes
                               in the procurement databases. Further, Postal Service
                               Strategic National Automated Purchasing System (SNAPS)
                               and Facilities Management System for Windows (FMSWIN)
                               do not have edit checks that would prevent entry of a
                               minority-owned supplier contract record without the ethnic
                               code.

                               As a result, the Postal Service cannot assess its supplier
                               base against business demographics changes at the ethnic
                               level and thus, may not be taking full advantage of
                               opportunities to increase revenue from minority-owned
                               businesses.

                               The Postal Service plans to correct this problem in its
                               April 2002 upgrade to the Strategic National Automated
                               Purchasing System. However, the Postal Service does not
                               have immediate plans for any system enhancements to
                               correct this problem in the Facilities Management System
                               for Windows.

 Recommendation	               We recommend the vice president, Purchasing and
                               Materials:

                               1.	 Require contracting officers to input ethnic codes for
                                   minority-owned suppliers in procurement databases.




                                                  4
                                        Restricted Information
Postal Service Supplier Demographics                                               CA-MA-02-001




 Management’s                  Management agreed with our recommendation. They
 Comments                      stated that current policy clearly calls for entry of this data.
                               They also stated they would remind contracting personnel of
                               this requirement via the Purchasing and Materials electronic
                               newsletter. They will also verify these codes are mandatory
                               fields in the Supplies, Services, and Equipment, Facilities,
                               and Transportation purchasing systems. They will also
                               request as applicable, edit checks be added to these
                               purchasing systems. These actions will take place within
                               60 days following receipt of the final report.

 Evaluation of                 Management’s comments are responsive to our
 Management’s                  recommendation. Although the OIG does not agree that
 Comments                      current policy clearly requires entry of this data in the
                               procurement systems, the actions planned should correct
                               the issues identified in the finding.




                                                 5
                                       Restricted Information
Postal Service Supplier Demographics	                                                                 CA-MA-02-001




 Supplier Base Not             Although the Postal Service was consistent with national
 Consistent With               business demographics regarding the total percentage of
 National Business             dollars awarded to minority-owned and woman-owned
 Demographics for              suppliers, it was not consistent with national business
 Number of Suppliers           demographics regarding the percentage of minority-owned
                               and woman-owned suppliers awarded contracts.

 Dollars Awarded	              As shown in Table 1.1, at the national level minority-owned
                               and woman-owned businesses receive about the same
                               percent of dollars from the Postal Service as they receive
                               from the United States business population.

                                                           Table 1.1
                                          National Level Analysis for Dollars Awarded
                                                    Minority Owned            Woman Owned
                                                       Business                 Business                  Total
                                                                Percent                   Percent
                                                   Dollars      to Total     Dollars      to Total       Dollars

                                Postal Service   $286,511,430    3.49%     $265,420,961    3.23%      $8,220,590,821
                                Nat'l Business
                                Demographics
                                $(000)           $591,259,123    3.19%     $818,669,084    4.41%     $18,553,243,047
                                Delta
                                Percentage                       0.30%                     -1.18%


                               Although we identified certain opportunities for improvement
                               (refer to Appendices C, D, and E for variances), the Postal
                               Service was generally consistent with national business
                               demographics at the state, Postal Service area, and
                               industrial sector levels.

 Number of Suppliers           As shown in Table 1.2, at the national level the percentage
                               of minority-owned and woman-owned businesses awarded
                               Postal Service contracts varied significantly when compared
                               to national business demographics. Specifically, the Postal
                               Service contracted with 5.8 percent fewer minority-owned
                               businesses as a percent of total suppliers than the United
                               States business population. Further, the Postal Service
                               contracted with 13.7 percent fewer woman-owned
                               businesses as a percent of total suppliers than the United
                               States business population.




                                                      6
                                         Restricted Information
Postal Service Supplier Demographics	                                                                   CA-MA-02-001




                                                                 Table 1.2
                                              National Level Analysis for Number of Suppliers

                                                         Minority Owned          Woman Owned
                                                            Business               Business                Total
                                                                  Percent to                 Percent
                                                      Suppliers     Total      Suppliers     to Total    Suppliers

                                     Postal Service       1,636       8.72%          2,310    12.31%         18,764

                                     Nat'l Business
                                     Demographics     3,039,033      14.60%     5,417,034     26.02%     20,821,934
                                     Delta
                                     Percentage                      -5.88%                  -13.71%


                                    Analyses at the state, Postal Service area, and industrial
                                    sector levels for the number of minority-owned businesses
                                    disclosed significant variances between the percentages for
                                    Postal Service and national business demographics.
                                    Specifically:

                                         •	 Twelve states5 showed variances ranging from
                                            6 percent to more than 18 percent (see Appendix C).

                                         •	 Two Postal Service areas, Pacific and New York
                                            Metro, showed variances of 12.6 percent and
                                            19 percent respectively (see Appendix D).

                                         •	 Three industrial sectors showed variances ranging
                                            from 5 percent to 10.7 percent (see Appendix E).

                                    For the number of woman-owned businesses, we found
                                    significant variances between the percentages for Postal
                                    Service and national business demographics. Specifically:

                                        •	 Forty-five states6 showed variances ranging from
                                           5.1 percent to 22.2 percent (see Appendix C).

                                        •	 Nine of the ten Postal Service areas showed
                                           variances ranging from 6.3 percent to 17.5 percent
                                           (see Appendix D).

                                        •	 Four industrial sectors showed variances ranging
                                           from 5.4 percent to 22.8 percent (see Appendix E).



5
    The 12 states included Washington, D.C.
6
    The 45 states included Washington, D.C.

                                                            7
                                              Restricted Information
Postal Service Supplier Demographics	                                               CA-MA-02-001




                               We also noted the Postal Service did not use national
                               business demographics data as a tool when assessing
                               diversity of its supplier base and identifying market
                               opportunities. As a result, the Postal Service cannot assess
                               its supplier base as business demographics change within
                               the American economy.

                               National business demographics data could assist the
                               Postal Service in assessing its minority-owned and woman­
                               owned supplier representation and foster opportunities to
                               maintain or increase revenue from these sources.
                               According to the Postal Service Supplier Diversity Plan
                               many of these suppliers use the Postal Service as their
                               carrier of choice. Therefore, under representation of these
                               suppliers may impact Postal Service opportunities to
                               increase or maintain revenues.

                               During an audit, Postal Service management advised us
                               that many of the minority-owned and woman-owned
                               businesses included in the 1997 national business
                               demographics may be too small to have the capability to
                               meet the needs of the Postal Service at the prime contract
                               level. Postal Service management believes there may be
                               opportunities for these suppliers at the subcontract level.

 Recommendation	               We recommend the vice president, Purchasing and
                               Materials:

                               2.	 Use national business demographics data as a tool
                                   when assessing diversity of its suppliers and identifying
                                   market opportunities.

 Management’s                  Management agreed that national business demographic
 Comments                      data is valuable and may be useful in efforts to identify
                               market opportunities. In addition, management agreed with
                               our recommendation and has begun to use this data in
                               overall diagnostics. However they do not believe that the
                               data is particularly useful in “sourcing” particular buys and is
                               probably less effective than the methods that are used now.
                               Management also questioned the accuracy of Postal
                               Service data used and the appropriateness of comparing
                               Postal Service data to national business demographics
                               without adjusting the national business demographics data
                               to exclude firms with few or no paid employees.


                                                  8
                                        Restricted Information
Postal Service Supplier Demographics                                          CA-MA-02-001




 Evaluation of                 Management’s comments are responsive to our
 Management’s                  recommendation. Although management acknowledged the
 Comments                      usefulness of national business demographics data and
                               agreed with our recommendation, we disagree with
                               management’s assertion that the dollars and numbers of
                               suppliers used in our analysis are inaccurate because the
                               dollars and numbers of suppliers used in our analysis were
                               derived from Postal Service procurement databases.
                               Regarding the appropriateness of comparing Postal Service
                               data to national business demographics without the
                               adjustments, we could not adjust Postal Service data to
                               exclude firms with few or no paid employees. Therefore, in
                               order to ensure an accurate comparison, we did not adjust
                               national business demographics data.




                                                 9
                                       Restricted Information
Postal Service Supplier Demographics                                                                CA-MA-02-001



                                APPENDIX A. METHODOLOGY
    National Business Demographics

    We categorized all United States businesses by minority and nonminority status and
    gender of business owners. We extracted the total number of all businesses, total
    revenue across all businesses, and total revenues for woman-owned businesses
    and minority-owned businesses from the Department of Commerce, United States
    Census Bureau, Economic Census 1997- Survey of Minority and Woman-Owned
    Business, C1-E97-NA2D-17-US1, Disc 2D CD-Rom.7 We excluded Guam, Puerto
    Rico, and the United States Virgin Islands from national business demographics
    because that information is not reported by gender. Total nonminority businesses
    and dollars represent the difference between total universe (all United States
    businesses) or dollars and total minority-owned businesses or dollars, respectively.

    • National Business Demographics by State. All national business demographics as
    described above were analyzed for each of the 50 states, the District of Columbia,
    and the United States as a whole.

    • National Business Demographics by Postal Service Area. All national business
    demographics as described above were analyzed for each of the ten Postal Service
    areas8 and for the United States as a whole. Because the United States Census
    Bureau does not group data by Postal Service areas, we had to merge Census
    Bureau national county data with data from the Postal Service Address Information
    System CD-Rom using the key (common factor) of county name and state to find
    their respective ZIP Codes. Then, national business demographics for each county
    were categorized into ZIP Codes that corresponded to the ten Postal Service areas.
    We verified counties that were identified in two Postal Service areas and assigned
    them to the correct area.9 Finally, we summarized the data by Postal Service area
    using Statistical Analysis Software.

    • National Business Demographics by Industrial Sector. All national business
    demographics as described above were analyzed for each of nine industrial sectors
    (Agriculture, Construction, Manufacturing, Transportation, Wholesale Trade, Retail
    Trade, Finance, Service, and Not Classified) and for the United States as a whole.
    These sectors were based on one-digit Standard Industrial Classification Codes.




7
  This includes both businesses/dollars with no paid employees. In addition, detail data does not add to the total
because of duplication of some businesses.
8
  Postal Service areas in existence as of FY 1999.
9
  County assignments were made based on Postal Service area with the larger number of ZIP Codes. When
ZIP Code information was not available, county assignments were made based on geographic area and proximity to
major cities.
                                                         10
                                               Restricted Information
Postal Service Supplier Demographics                                                                    CA-MA-02-001




     Postal Service Supplier Demographics

     We used FY 1999 contract data and categorized all Postal Service suppliers by
     either minority or nonminority status and gender of business owners based on Postal
     Service classification of socioeconomic status. The total number of all suppliers10
     and total Postal Service dollars awarded across all suppliers were calculated for
     each possible business combination (minority-female-owned business, minority-
     male-owned business, nonminority-female-owned business, and nonminority-male-
     owned business). In addition, summaries were provided for each business
     combination. The data presented within this report has been aggregated from four
     separate Postal Service purchasing groups (Supplies, Services, and Equipment;
     Facilities; Transportation; and local purchases paid via credit card) and consist of
     FY 1999 contract data. Transportation purchasing data is separated as water, air,
     highway, and rail categories.11 In all analysis group comparisons the number of
     suppliers in local purchases paid via credit card was excluded from the total number
     of Postal Service suppliers.

     • Postal Service Supplier Demographics by State were analyzed for each of the
     50 states, the District of Columbia, and for the United States as a whole.

     • Postal Service Supplier Demographics by Postal Service Areas were analyzed for
     each of the ten Postal Service areas and the United States as a whole.

     • Postal Service Supplier Demographics by Industrial Sector described above were
     analyzed for six of the nine industrial sectors (Construction, Manufacturing,
     Transportation, Wholesale Trade, Retail Trade, and Service) and for the United
     States as a whole. We excluded Agriculture and Finance because the Postal
     Service did not have any suppliers in these categories. The not classified category
     was not a meaningful comparison in this report. The six industrial sectors analyzed
     were based on one-digit Standard Industrial Classification Codes.12




10
   Total number of suppliers does not include those suppliers classified as Nonprofit, Educational, National Institute
for the Blind (NIB), National Institute for the Severely Handicapped (NISH), Federal Prison Industries or Foreign.
11
   For all purchasing areas except local purchases made by credit card, the total number of businesses and the total
amount of Postal Service procurements across those businesses is based on commitment, and thus does not
represent actual payments.
12
   The various Postal Service purchasing entities all used different means to classify business sectors (industrial
areas). For example, there are approximately 600 commodity codes that can be used to classify supplies and
services contracts. Thus, in order to compare Postal Service Supplier Demographics to National Business
Demographics, we created a mapping of these supplies and services commodity codes to the standard sectors
provided by Standard Industrial Classification codes.
                                                            11
                                                  Restricted Information
Postal Service Supplier Demographics                                          CA-MA-02-001




     APPENDIX B. ANALYSIS OF MINORITY ETHNIC CODE USAGE

Data contained in this table was extracted from Facilities (FMSWIN), Supplies,
Services, and Equipment (SNAPS), and Transportation Highway (HCSS) procurement
databases after the end of FY 2001.




                                       State Minority Dollars

                                FY 2001 Minority Ethnic Code Usage

                                                      Percentage of
                                           Minority      Minority   Nonminority
                      Total       Minority Records     Records w/o Records with
              System Records      Records w/o codes Ethnic Codes Ethnic Codes
             FMSWIN     7,769         553         312        56.42%            0
             SNAPS     10,560         835         405        48.50%           55
             HCSS       4,160         521           9         1.73%            7




                                                   12
                                         Restricted Information
Postal Service Supplier Demographics                                                                                  CA-MA-02-001



                       APPENDIX C. COMPARISONS BY STATE
                                      Postal Service                     National Business Demographics
                                                                                            TOTAL
                                               TOTAL                                       MINORITY        CENSUS        DELTA
                              TOTAL           MINORITY      PERCENT         TOTAL          SUPPLIER       PERCENT       PERCENT
     State                  SUPPLIER $       SUPPLIER $     MINORITY    SUPPLIER $ (000)     $ (000)      MINORITY      MINORITY
     ALASKA                   $14,241,847      $8,071,842      56.68%        $36,911,657     $2,214,134      6.00%         50.68%
     RHODE ISLAND              $6,699,874      $1,619,376      24.17%        $52,930,316      $626,860       1.18%         22.99%
     IDAHO                     $8,708,253      $1,880,442      21.59%        $65,838,870      $744,248       1.13%         20.46%
     LOUISIANA                $14,731,838      $2,422,201      16.44%       $285,022,192     $5,104,762      1.79%         14.65%
     NEVADA                   $20,820,599      $3,497,418      16.80%       $102,813,070     $3,523,319      3.43%         13.37%
     MINNESOTA                $71,039,146      $9,211,820      12.97%       $382,363,126     $3,105,911      0.81%         12.15%
     NEW MEXICO               $18,501,305      $3,029,285      16.37%        $79,752,084     $4,892,577      6.13%         10.24%
     FLORIDA                 $181,340,239     $29,199,652      16.10%       $828,429,130    $50,840,406      6.14%          9.97%
     ARKANSAS                 $46,119,107      $4,405,587       9.55%       $143,570,776     $1,406,545      0.98%          8.57%
     MISSISSIPPI              $25,288,346      $2,506,450       9.91%       $122,887,932     $1,993,954      1.62%          8.29%
     NEBRASKA                 $21,314,241      $1,599,504       7.50%       $137,755,012      $592,132       0.43%          7.07%
     COLORADO                 $61,041,723      $5,605,446       9.18%       $277,629,997     $6,072,352      2.19%          7.00%
     WASHINGTON               $58,677,493      $5,656,893       9.64%       $357,322,932    $11,335,907      3.17%          6.47%
     SOUTH CAROLINA           $18,996,495      $1,256,278       6.61%       $213,486,429     $2,621,280      1.23%          5.39%
     KANSAS                   $57,083,224      $3,681,884       6.45%       $184,199,987     $2,160,560      1.17%          5.28%
     MASSACHUSETTS            $99,955,579      $6,466,021       6.47%       $517,291,479     $6,980,154      1.35%          5.12%
     CALIFORNIA              $353,242,431     $45,079,858      12.76%     $2,178,292,213   $182,892,499      8.40%          4.37%
     NORTH CAROLINA          $126,862,235      $7,173,105       5.65%       $518,648,589     $6,711,336      1.29%          4.36%
     SOUTH DAKOTA              $6,613,174       $311,605        4.71%        $50,181,052      $352,347       0.70%          4.01%
     DELAWARE                  $1,751,938        $85,865        4.90%        $89,318,585     $1,244,413      1.39%          3.51%
     NORTH DAKOTA              $5,462,189       $224,803        4.12%        $35,005,958      $248,686       0.71%          3.41%
     PENNSYLVANIA            $433,440,175     $18,201,214       4.20%       $802,492,149     $8,643,046      1.08%          3.12%
     MAINE                    $10,538,101       $323,360        3.07%        $63,626,180      $401,278       0.63%          2.44%
     NEW JERSEY              $157,451,565      $9,278,919       5.89%       $690,007,714    $24,138,905      3.50%          2.39%
     TENNESSEE                $81,082,515      $2,520,033       3.11%       $362,587,045     $4,583,483      1.26%          1.84%
     WYOMING                   $4,849,477       $103,564        2.14%        $26,742,915      $231,547       0.87%          1.27%
     ILLINOIS                $448,188,406     $16,106,827       3.59%       $993,116,732    $23,997,470      2.42%          1.18%
     MONTANA                  $14,473,082       $302,695        2.09%        $37,668,225      $355,777       0.94%          1.15%
     OHIO                    $143,156,090      $3,375,622       2.36%       $796,505,791    $11,115,306      1.40%          0.96%
     ALABAMA                  $55,720,149      $1,225,804       2.20%       $237,406,593     $3,231,787      1.36%          0.84%
     UTAH                     $36,381,421       $573,055        1.58%       $119,100,391     $1,208,280      1.01%          0.56%
     MISSOURI                $134,808,328      $2,065,638       1.53%       $382,797,052     $3,775,340      0.99%          0.55%
     CONNECTICUT             $100,314,464      $1,814,947       1.81%       $314,909,364     $4,572,230      1.45%          0.36%
     IOWA                     $44,471,128       $336,500        0.76%       $206,328,836      $897,145       0.43%          0.32%
     MARYLAND                $519,206,646     $21,963,962       4.23%       $285,924,027    $11,575,635      4.05%          0.18%
     GEORGIA                 $206,745,140      $4,892,102       2.37%       $580,344,999    $12,874,398      2.22%          0.15%
     INDIANA                 $467,988,862      $3,814,052       0.81%       $407,270,539     $4,305,606      1.06%         -0.24%
     ARIZONA                  $97,909,538      $2,485,560       2.54%       $247,191,482     $7,139,822      2.89%         -0.35%
     WEST VIRGINIA            $10,916,731        $63,950        0.59%        $77,527,532      $834,659       1.08%         -0.49%
     NEW HAMPSHIRE            $12,153,972        $70,699        0.58%        $79,303,771      $891,838       1.12%         -0.54%
     KENTUCKY                $113,965,143       $344,313        0.30%       $245,795,924     $2,460,827      1.00%         -0.70%
     OKLAHOMA                 $32,506,542       $615,956        1.89%       $172,370,196     $4,606,294      2.67%         -0.78%
     WISCONSIN               $148,424,902       $440,061        0.30%       $367,841,279     $3,969,840      1.08%         -0.78%
     NEW YORK                $517,346,275     $11,550,156       2.23%     $1,488,912,652    $47,214,892      3.17%         -0.94%
     VIRGINIA                $772,327,925      $9,993,524       1.29%       $415,092,587    $10,197,142      2.46%         -1.16%
     VERMONT                   $3,133,401           $469        0.01%        $33,469,226      $449,620       1.34%         -1.33%
     MICHIGAN                $699,229,447      $2,685,427       0.38%       $715,375,586    $12,730,730      1.78%         -1.40%
     OREGON                  $321,392,025      $1,086,025       0.34%       $220,084,989     $3,945,696      1.79%         -1.45%
     TEXAS                  $1,070,426,732    $27,729,085       2.59%     $1,415,535,633    $67,384,765      4.76%         -2.17%
     DISTRICT OF COLUMBIA    $366,863,512      $2,752,845       0.75%        $52,900,995     $3,039,016      5.74%         -4.99%
     HAWAII                   $17,176,116      $3,157,812      18.38%        $55,361,257    $14,822,367      26.77%        -8.39%




                                                            13
                                                  Restricted Information
Postal Service Supplier Demographics                                                                      CA-MA-02-001




                                          State Minority Suppliers
                                    Postal Service              National Business Demographics
                                         TOTAL                                   TOTAL                      DELTA
                              TOTAL     MINORITY    PERCENT       TOTAL         MINORITY     PERCENT       PERCENT
     State                  SUPPLIER # SUPPLIER #   MINORITY    SUPPLIER #     SUPPLIER #    MINORITY      MINORITY
     NEVADA                        165         28      16.97%       129,757         15,187       11.70%        5.27%
     ILLINOIS                    1,009        179      17.74%       882,053        110,340       12.51%        5.23%
     LOUISIANA                     224         43      19.20%       295,679         41,734       14.11%        5.08%
     WYOMING                        40          3       7.50%        49,376          2,146        4.35%        3.15%
     CONNECTICUT                   327         28       8.56%       284,022         20,409        7.19%        1.38%
     MISSISSIPPI                   170         24      14.12%       167,907         21,997       13.10%        1.02%
     OREGON                        187         13       6.95%       291,596         18,215        6.25%        0.71%
     SOUTH DAKOTA                   94          3       3.19%        65,791          1,653        2.51%        0.68%
     INDIANA                       278         16       5.76%       413,400         22,761        5.51%        0.25%
     COLORADO                      426         39       9.15%       410,249         37,021        9.02%        0.13%
     MINNESOTA                     428         16       3.74%       410,634         15,258        3.72%        0.02%
     MASSACHUSETTS                 571         40       7.01%       537,150         39,039        7.27%        -0.26%
     MICHIGAN                      596         42       7.05%       677,473         51,751        7.64%        -0.59%
     ARKANSAS                      282         17       6.03%       193,424         13,023        6.73%        -0.70%
     IOWA                          249          4       1.61%       227,562          5,299        2.33%        -0.72%
     MAINE                         211          3       1.42%       127,467          2,822        2.21%        -0.79%
     NEBRASKA                      119          3       2.52%       138,762          4,632        3.34%        -0.82%
     IDAHO                          83          3       3.61%       109,758          5,164        4.70%        -1.09%
     TENNESSEE                     330         22       6.67%       415,934         32,524        7.82%        -1.15%
     MONTANA                       125          3       2.40%        93,677          3,356        3.58%        -1.18%
     ARIZONA                       334         40      11.98%       329,031         43,337       13.17%        -1.20%
     ALABAMA                       257         22       8.56%       285,206         28,292        9.92%        -1.36%
     KENTUCKY                      226          7       3.10%       281,551         12,664        4.50%        -1.40%
     NORTH DAKOTA                   75          1       1.33%        55,266          1,530        2.77%        -1.44%
     WEST VIRGINIA                 128          3       2.34%       111,737          4,290        3.84%        -1.50%
     WISCONSIN                     295          6       2.03%       366,436         13,692        3.74%        -1.70%
     NEW HAMPSHIRE                 127          1       0.79%       115,747          3,228        2.79%        -2.00%
     UTAH                          163          5       3.07%       169,164          8,617        5.09%        -2.03%
     DELAWARE                       41          3       7.32%        56,586          5,329        9.42%        -2.10%
     OHIO                          619         26       4.20%       781,284         49,430        6.33%        -2.13%
     RHODE ISLAND                   82          3       3.66%        80,934          4,784        5.91%        -2.25%
     PENNSYLVANIA                  944         32       3.39%       837,756         49,455        5.90%        -2.51%
     MISSOURI                      454         17       3.74%       411,403         26,558        6.46%        -2.71%
     KANSAS                        182          5       2.75%       213,392         11,663        5.47%        -2.72%
     WASHINGTON                    339         22       6.49%       447,433         42,935        9.60%        -3.11%
     VERMONT                        60          0       0.00%        67,488          2,109        3.13%        -3.13%
     OKLAHOMA                      238         15       6.30%       280,722         28,509       10.16%        -3.85%
     SOUTH CAROLINA                206         16       7.77%       260,342         30,753       11.81%        -4.05%
     NORTH CAROLINA                462         29       6.28%       570,484         61,551       10.79%        -4.51%
     GEORGIA                       430         41       9.53%       568,552         88,733       15.61%        -6.07%
     NEW MEXICO                    179         38      21.23%       131,685         37,497       28.47%        -7.25%
     VIRGINIA                      653         45       6.89%       480,122         71,705       14.93%        -8.04%
     MARYLAND                      590         74      12.54%       400,203         82,619       20.64%        -8.10%
     NEW JERSEY                    685         50       7.30%       654,227        102,295       15.64%        -8.34%
     ALASKA                        192         16       8.33%        64,134         10,695       16.68%        -8.34%
     TEXAS                       1,250        184      14.72%      1,525,972       365,450       23.95%        -9.23%
     FLORIDA                       867        106      12.23%      1,301,920       286,885       22.04%        -9.81%
     HAWAII                        132         61      46.21%        93,981         54,250       57.72%       -11.51%
     NEW YORK                    1,246         87       6.98%      1,509,829       296,523       19.64%       -12.66%
     CALIFORNIA                  1,489        209      14.04%      2,565,734       738,000       28.76%       -14.73%
     DISTRICT OF COLUMBIA          174         26      14.94%        45,297         15,238       33.64%       -18.70%




                                                         14
                                               Restricted Information
Postal Service Supplier Demographics                                                                                CA-MA-02-001



                                       State Woman-Owned Dollars
                                   Postal Service                       National Business Demographics
                                                                                          TOTAL
                                              TOTAL                                       WOMEN                      DELTA
                            TOTAL            WOMEN         PERCENT        TOTAL          SUPPLIER       PERCENT     PERCENT
   State                  SUPPLIER $        SUPPLIER $      WOMEN     SUPPLIER $ (000)     $ (000)       WOMEN       WOMEN
   SOUTH CAROLINA            $18,996,495      $6,445,179     33.93%       $213,486,429    $10,634,412       4.98%      28.95%
   COLORADO                  $61,041,723     $17,041,657     27.92%       $277,629,997    $13,762,595       4.96%      22.96%
   NEW MEXICO                $18,501,305      $5,065,002     27.38%        $79,752,084     $4,449,686       5.58%      21.80%
   NEBRASKA                  $21,314,241      $4,172,769     19.58%       $137,755,012     $4,536,547       3.29%      16.28%
   LOUISIANA                 $14,731,838      $2,390,337     16.23%       $285,022,192    $11,462,806       4.02%      12.20%
   SOUTH DAKOTA               $6,613,174       $714,601      10.81%        $50,181,052     $1,202,178       2.40%      8.41%
   NORTH DAKOTA               $5,462,189       $614,887      11.26%        $35,005,958     $1,166,763       3.33%      7.92%
   IOWA                      $44,471,128      $4,542,990     10.22%       $206,328,836     $8,093,311       3.92%      6.29%
   OHIO                     $143,156,090     $13,906,408      9.71%       $796,505,791    $30,596,853       3.84%      5.87%
   NEW JERSEY               $157,451,565     $14,009,114      8.90%       $690,007,714    $30,000,725       4.35%      4.55%
   CALIFORNIA               $353,242,431     $33,771,637      9.56%     $2,178,292,213   $121,191,163       5.56%      4.00%
   FLORIDA                  $181,340,239     $17,270,831      9.52%       $828,429,130    $48,261,328       5.83%      3.70%
   MINNESOTA                 $71,039,146      $4,432,542      6.24%       $382,363,126    $13,457,542       3.52%      2.72%
   IDAHO                      $8,708,253       $553,988       6.36%        $65,838,870     $2,405,407       3.65%      2.71%
   UTAH                      $36,381,421      $2,401,810      6.60%       $119,100,391     $5,096,187       4.28%      2.32%
   WASHINGTON                $58,677,493      $3,839,065      6.54%       $357,322,932    $15,099,236       4.23%      2.32%
   RHODE ISLAND               $6,699,874       $467,702       6.98%        $52,930,316     $2,683,580       5.07%      1.91%
   MAINE                     $10,538,101       $586,180       5.56%        $63,626,180     $3,212,307       5.05%      0.51%
   GEORGIA                  $206,745,140     $10,059,348      4.87%       $580,344,999    $25,267,240       4.35%      0.51%
   ARIZONA                   $97,909,538      $4,892,598      5.00%       $247,191,482    $11,304,658       4.57%      0.42%
   MONTANA                   $14,473,082       $844,170       5.83%        $37,668,225     $2,047,559       5.44%      0.40%
   MASSACHUSETTS             $99,955,579      $3,529,213      3.53%       $517,291,479    $16,752,596       3.24%      0.29%
   TENNESSEE                 $81,082,515      $3,028,761      3.74%       $362,587,045    $14,538,315       4.01%      -0.27%
   OKLAHOMA                  $32,506,542      $1,576,127      4.85%       $172,370,196     $8,911,638       5.17%      -0.32%
   ILLINOIS                 $448,188,406     $17,811,384      3.97%       $993,116,732    $44,273,464       4.46%      -0.48%
   WISCONSIN                $148,424,902      $5,567,530      3.75%       $367,841,279    $15,653,949       4.26%      -0.50%
   VERMONT                    $3,133,401       $105,781       3.38%        $33,469,226     $1,313,146       3.92%      -0.55%
   NEVADA                    $20,820,599      $1,087,472      5.22%       $102,813,070     $5,971,518       5.81%      -0.59%
   DELAWARE                   $1,751,938        $25,643       1.46%        $89,318,585     $1,831,055       2.05%      -0.59%
   NORTH CAROLINA           $126,862,235      $4,658,272      3.67%       $518,648,589    $24,166,074       4.66%      -0.99%
   WEST VIRGINIA             $10,916,731       $338,992       3.11%        $77,527,532     $3,298,735       4.25%      -1.15%
   CONNECTICUT              $100,314,464      $1,751,971      1.75%       $314,909,364     $9,276,337       2.95%      -1.20%
   NEW YORK                 $517,346,275     $13,032,720      2.52%     $1,488,912,652    $59,496,722       4.00%      -1.48%
   ALABAMA                   $55,720,149      $1,444,877      2.59%       $237,406,593    $10,230,379       4.31%      -1.72%
   KENTUCKY                 $113,965,143      $2,592,131      2.27%       $245,795,924     $9,876,600       4.02%      -1.74%
   WYOMING                    $4,849,477        $84,688       1.75%        $26,742,915      $944,747        3.53%      -1.79%
   ALASKA                    $14,241,847       $472,434       3.32%        $36,911,657     $1,942,339       5.26%      -1.94%
   ARKANSAS                  $46,119,107      $1,157,681      2.51%       $143,570,776     $6,490,255       4.52%      -2.01%
   KANSAS                    $57,083,224       $928,705       1.63%       $184,199,987     $6,928,221       3.76%      -2.13%
   NEW HAMPSHIRE             $12,153,972       $215,184       1.77%        $79,303,771     $3,112,620       3.92%      -2.15%
   MISSOURI                 $134,808,328      $2,374,248      1.76%       $382,797,052    $15,002,981       3.92%      -2.16%
   VIRGINIA                 $772,327,925     $13,278,813      1.72%       $415,092,587    $17,486,395       4.21%      -2.49%
   PENNSYLVANIA             $433,440,175      $7,511,909      1.73%       $802,492,149    $34,043,332       4.24%      -2.51%
   MICHIGAN                 $699,229,447      $6,641,171      0.95%       $715,375,586    $26,498,569       3.70%      -2.75%
   TEXAS                   $1,070,426,732    $18,549,785      1.73%     $1,415,535,633    $65,065,262       4.60%      -2.86%
   MISSISSIPPI               $25,288,346       $487,663       1.93%       $122,887,932     $5,995,011       4.88%      -2.95%
   INDIANA                  $467,988,862      $1,351,535      0.29%       $407,270,539    $13,578,102       3.33%      -3.05%
   DISTRICT OF COLUMBIA     $366,863,512      $1,220,604      0.33%        $52,900,995     $1,813,270       3.43%      -3.09%
   MARYLAND                 $519,206,646      $7,823,453      1.51%       $285,924,027    $14,657,414       5.13%      -3.62%
   OREGON                   $321,392,025      $1,460,674      0.45%       $220,084,989    $10,334,626       4.70%      -4.24%
   HAWAII                    $17,176,116       $251,021       1.46%        $55,361,257     $3,253,329       5.88%      -4.42%




                                                            15
                                                  Restricted Information
Postal Service Supplier Demographics                                                                   CA-MA-02-001



                                    State Woman-Owned Suppliers

                                  Postal Service             National Business Demographics
                                       TOTAL                                   TOTAL                    DELTA
                            TOTAL     WOMEN       PERCENT       TOTAL         WOMEN        PERCENT     PERCENT
   State                  SUPPLIER # SUPPLIER #    WOMEN      SUPPLIER #     SUPPLIER #     WOMEN       WOMEN
   LOUISIANA                     224         76     33.93%         295,679        70,550      23.86%     10.07%
   MONTANA                       125         29     23.20%          93,677        22,404      23.92%      -0.72%
   SOUTH DAKOTA                   94         17     18.09%          65,791        14,121      21.46%      -3.38%
   NEW MEXICO                    179         44     24.58%         131,685        38,706      29.39%      -4.81%
   ALABAMA                       257         50     19.46%         285,206        69,515      24.37%      -4.92%
   ARKANSAS                      282         48     17.02%         193,424        42,581      22.01%      -4.99%
   OKLAHOMA                      238         45     18.91%         280,722        67,481      24.04%      -5.13%
   IDAHO                          83         15     18.07%         109,758        25,763      23.47%      -5.40%
   ARIZONA                       334         69     20.66%         329,031        88,780      26.98%      -6.32%
   MAINE                         211         36     17.06%         127,467        30,598      24.00%      -6.94%
   TEXAS                       1,250        224     17.92%       1,525,972       381,453      25.00%      -7.08%
   WYOMING                        40          6     15.00%          49,376        11,148      22.58%      -7.58%
   NORTH DAKOTA                   75         11     14.67%          55,266        12,417      22.47%      -7.80%
   NEVADA                        165         29     17.58%         129,757        33,311      25.67%      -8.10%
   SOUTH CAROLINA                206         34     16.50%         260,342        64,232      24.67%      -8.17%
   OREGON                        187         35     18.72%         291,596        80,543      27.62%      -8.90%
   KENTUCKY                      226         30     13.27%         281,551        65,965      23.43%     -10.15%
   INDIANA                       278         42     15.11%         413,400       107,082      25.90%     -10.79%
   MISSISSIPPI                   170         20     11.76%         167,907        38,321      22.82%     -11.06%
   FLORIDA                       867        127     14.65%       1,301,920       337,811      25.95%     -11.30%
   NEBRASKA                      119         15     12.61%         138,762        33,469      24.12%     -11.51%
   MISSOURI                      454         60     13.22%         411,403       103,626      25.19%     -11.97%
   MICHIGAN                      596         91     15.27%         677,473       184,590      27.25%     -11.98%
   ALASKA                        192         26     13.54%          64,134        16,633      25.93%     -12.39%
   UTAH                          163         20     12.27%         169,164        41,991      24.82%     -12.55%
   COLORADO                      426         60     14.08%         410,249       114,807      27.98%     -13.90%
   TENNESSEE                     330         31      9.39%         415,934        99,772      23.99%     -14.59%
   NEW HAMPSHIRE                 127         11      8.66%         115,747        27,265      23.56%     -14.89%
   MARYLAND                      590         82     13.90%         400,203       115,801      28.94%     -15.04%
   CALIFORNIA                  1,489        181     12.16%       2,565,734       700,513      27.30%     -15.15%
   VERMONT                        60          6     10.00%          67,488        17,030      25.23%     -15.23%
   NORTH CAROLINA                462         42      9.09%         570,484       139,900      24.52%     -15.43%
   GEORGIA                       430         43     10.00%         568,552       145,576      25.60%     -15.60%
   DISTRICT OF COLUMBIA          174         26     14.94%          45,297        13,979      30.86%     -15.92%
   RHODE ISLAND                   82          7      8.54%          80,934        19,886      24.57%     -16.03%
   PENNSYLVANIA                  944         77      8.16%         837,756       202,990      24.23%     -16.07%
   NEW JERSEY                    685         51      7.45%         654,227       155,345      23.74%     -16.30%
   WASHINGTON                    339         37     10.91%         447,433       123,042      27.50%     -16.59%
   NEW YORK                    1,246        117      9.39%       1,509,829       394,014      26.10%     -16.71%
   WEST VIRGINIA                 128         13     10.16%         111,737        30,231      27.06%     -16.90%
   MINNESOTA                     428         40      9.35%         410,634       108,417      26.40%     -17.06%
   ILLINOIS                    1,009        101     10.01%         882,053       239,725      27.18%     -17.17%
   WISCONSIN                     295         19      6.44%         366,436        89,284      24.37%     -17.92%
   VIRGINIA                      653         60      9.19%         480,122       132,219      27.54%     -18.35%
   KANSAS                        182         13      7.14%         213,392        54,638      25.60%     -18.46%
   OHIO                          619         46      7.43%         781,284       205,044      26.24%     -18.81%
   MASSACHUSETTS                 571         37      6.48%         537,150       142,661      26.56%     -20.08%
   CONNECTICUT                   327         17      5.20%         284,022        72,393      25.49%     -20.29%
   IOWA                          249         11      4.42%         227,562        57,527      25.28%     -20.86%
   DELAWARE                       41          1      2.44%          56,586        13,662      24.14%     -21.70%
   HAWAII                        132          7      5.30%          93,981        25,807      27.46%     -22.16%




                                                        16
                                              Restricted Information
Postal Service Supplier Demographics                                                                              CA-MA-02-001



       APPENDIX D. COMPARISONS BY POSTAL SERVICE AREAS
                                  Postal Service Area - Minority Dollars
                                 Postal Service                    National Business Demographics
                                                                                      TOTAL
                                       TOTAL                                         MINORITY                     DELTA
                       TOTAL          MINORITY       PERCENT         TOTAL           SUPPLIER         PERCENT    PERCENT
        Area*        SUPPLIER $      SUPPLIER $      MINORITY    SUPPLIER $ (000)      $ (000)        MINORITY   MINORITY
   NATIONAL         $8,220,590,821   $286,511,430        3.49%     $18,553,243,047     $591,259,123      3.19%        0.30%
   ALLEGHENY          $586,466,361    $22,013,072        3.75%      $1,847,014,192      $22,971,589      1.24%        2.51%
   GREAT LAKES      $1,479,907,627    $22,366,512        1.51%      $1,990,639,407      $38,535,858      1.94%       -0.42%
   MID-ATLANTIC**   $1,908,703,155    $42,135,032        2.21%      $1,786,772,885      $35,250,385      1.97%        0.23%
   MIDWEST            $611,707,667    $17,885,221        2.92%      $1,740,450,346      $12,455,224      0.72%        2.21%
   NEW YORK           $344,553,111    $15,390,378        4.47%      $1,752,339,803      $65,773,471      3.75%        0.71%
   NORTHEAST          $551,769,002    $10,948,344        1.98%      $1,376,010,588      $16,379,223      1.19%        0.79%
   PACIFIC            $368,417,751    $47,900,545       13.00%      $2,227,414,207     $197,399,282      8.86%        4.14%
   SOUTHEAST          $545,031,239    $40,445,792        7.42%      $2,179,121,137      $70,899,339      3.25%        4.17%
   SOUTHWEST        $1,167,891,806    $35,166,667        3.01%      $1,991,402,923      $73,769,536      3.70%       -0.69%
   WESTERN            $656,143,102    $32,259,867        4.92%      $1,559,555,266      $40,323,532      2.59%        2.33%




                                 Postal Service Area - Minority Suppliers

                             Postal Service                      National Business Demographics

                                    TOTAL                                          TOTAL                          DELTA
                      TOTAL        MINORITY         PERCENT        TOTAL          MINORITY       PERCENT         PERCENT
        Area*       SUPPLIER #    SUPPLIER #        Minority     SUPPLIER #      SUPPLIER #      MINORITY        MINORITY
   NATIONAL              18,764          1,636          8.72%      20,821,934        3,039,033         14.60%        -5.88%
   ALLEGHENY              1,741             72          4.14%        1,899,355        102,264           5.38%        -1.25%
   GREAT LAKES            1,790            233         13.02%        1,820,276        155,048           8.52%         4.50%
   MID-ATLANTIC**         2,370            195          8.23%        2,100,031        203,143           9.67%        -1.45%
   MIDWEST                1,930             58          3.01%        1,895,290         46,972           2.48%         0.53%
   NEW YORK               1,235             32          2.59%        1,681,227        363,718          21.63%       -19.04%
   NORTHEAST              1,847             93          5.04%        1,610,641         71,207           4.42%         0.61%
   PACIFIC                1,601            264         16.49%        2,695,303        784,715          29.11%       -12.62%
   SOUTHEAST              2,059            219         10.64%        2,733,845        382,768          14.00%        -3.36%
   SOUTHWEST              1,981            259         13.07%        2,260,178        363,065          16.06%        -2.99%
   WESTERN                2,210            211          9.55%        2,177,199        174,338           8.01%         1.54%




* Postal Service areas in existence as of FY 1999.
** Includes Capital Metro Area.


                                                               17
                                                     Restricted Information
Postal Service Supplier Demographics                                                                            CA-MA-02-001



                           Postal Service Area - Woman-Owned Dollars

                                 Postal Service                   National Business Demographics
                                                                                     TOTAL
                                       TOTAL                                         WOMEN                       DELTA
                       TOTAL          WOMEN          PERCENT        TOTAL           SUPPLIER         PERCENT    PERCENT
        Area*        SUPPLIER $      SUPPLIER $      WOMEN      SUPPLIER $ (000)     $ (000)         WOMEN       WOMEN
   NATIONAL         $8,220,590,821   $265,420,961       3.23%     $18,553,243,047     $818,669,084      4.41%       -1.18%
   ALLEGHENY          $586,466,361    $23,474,870       4.00%      $1,847,014,192      $72,744,940      3.94%       0.06%
   GREAT LAKES      $1,479,907,627    $25,413,566       1.72%      $1,990,639,407      $77,819,836      3.91%       -2.19%
   MID-ATLANTIC**   $1,908,703,155    $34,233,972       1.79%      $1,786,772,885      $79,197,191      4.43%       -2.64%
   MIDWEST            $611,707,667    $23,755,315       3.88%      $1,740,450,346      $62,869,189      3.61%       0.27%
   NEW YORK           $344,553,111    $21,778,867       6.32%      $1,752,339,803      $71,265,985      4.07%       2.25%
   NORTHEAST          $551,769,002     $9,068,965       1.64%      $1,376,010,588      $47,500,449      3.45%       -1.81%
   PACIFIC            $368,417,751    $33,715,353       9.15%      $2,227,414,207     $124,013,961      5.57%       3.58%
   SOUTHEAST          $545,031,239    $32,496,497       5.96%      $2,179,121,137     $103,972,092      4.77%       1.19%
   SOUTHWEST        $1,167,891,806    $23,629,461       2.02%      $1,991,402,923      $87,791,036      4.41%       -2.39%
   WESTERN            $656,143,102    $37,854,095       5.77%      $1,559,555,266      $72,879,288      4.67%       1.10%




                          Postal Service Area - Woman-Owned Supplier
                             Postal Service                     National Business Demographics

                                    TOTAL                                         TOTAL                          DELTA
                      TOTAL        WOMEN            PERCENT       TOTAL          WOMEN          PERCENT         PERCENT
        Area*       SUPPLIER #    SUPPLIER #        WOMEN       SUPPLIER #      SUPPLIER #      WOMEN            WOMEN
   NATIONAL              18,764          2,310        12.31%      20,821,934        5,417,034        26.02%        -13.71%
   ALLEGHENY              1,741            140         8.04%        1,899,355        417,031         21.96%        -13.92%
   GREAT LAKES            1,790            227        12.68%        1,820,276        422,868         23.23%        -10.55%
   MID-ATLANTIC**         2,370            273        11.52%        2,100,031        425,377         20.26%         -8.74%
   MIDWEST                1,930            195        10.10%        1,895,290        311,683         16.45%         -6.34%
   NEW YORK               1,235             86         6.96%        1,681,227        410,745         24.43%        -17.47%
   NORTHEAST              1,847            164         8.88%        1,610,641        402,546         24.99%        -16.11%
   PACIFIC                1,601            179        11.18%        2,695,303        719,657         26.70%        -15.52%
   SOUTHEAST              2,059            280        13.60%        2,733,845        589,047         21.55%         -7.95%
   SOUTHWEST              1,981            391        19.74%        2,260,178        446,204         19.74%         0.00%
   WESTERN                2,210            375        16.97%        2,177,199        518,164         23.80%         -6.83%




* Postal Service areas in existence as of FY 1999.
** Includes Capital Metro Area.




                                                               18
                                                     Restricted Information
Postal Service Supplier Demographics                                                                                        CA-MA-02-001



             APPENDIX E. COMPARISONS BY INDUSTRIAL SECTOR
                                                   Sector - Minority Dollars *
                                                      Postal Service                   National Business Demographics
                                                                                                     TOTAL
                                                             TOTAL                     TOTAL        MINORITY                   DELTA
                                             TOTAL          MINORITY     PERCENT     SUPPLIER $     SUPPLIER PERCENT          PERCENT
      SECTOR                              SUPPLIER $       SUPPLIER $ MINORITY          (000)         $ (000)   MINORITY      MINORITY
      Construction                        $1,796,318,480    $160,388,747    8.93%     $944,154,542 $41,883,580      4.44%         4.49%
      Manufacturing                         $935,425,732      $8,844,050    0.95%   $4,021,515,429 $63,048,288      1.57%        -0.62%
      Retail Trade                          $104,117,148      $6,583,482    6.32%   $2,649,085,229 $116,260,610     4.39%         1.93%
      Services                            $1,769,164,662     $50,246,518    2.84%   $2,614,964,642 $135,876,314     5.20%        -2.36%
      Transportation & Public Utilities   $2,206,686,310     $38,055,594    1.72%   $1,183,669,281 $21,273,509      1.80%        -0.08%
      Wholesale Trade                     $1,378,819,794     $34,205,124    2.48%   $4,270,041,314 $153,874,333     3.60%        -1.12%




                                                 Sector - Minority Suppliers *
                                                      Postal Service                   National Business Demographics

                                                             TOTAL                                 TOTAL                       DELTA
                                            TOTAL           MINORITY   PERCENT        TOTAL       MINORITY PERCENT            PERCENT
      SECTOR                              SUPPLIER #       SUPPLIER # MINORITY      SUPPLIER #   SUPPLIER # MINORITY          MINORITY
      Construction                               8,463             503    5.94%        2,333,424      255,251  10.94%            -5.00%
      Manufacturing                              1,407             111    7.89%          688,782       63,640   9.24%            -1.35%
      Retail Trade                                  22               1    4.55%        2,889,041      439,450  15.21%           -10.67%
      Services                                   4,899             665   13.57%        8,891,023    1,339,486  15.07%            -1.49%
      Transportation & Public Utilities          2,923             405   13.86%          919,570      190,564  20.72%            -6.86%
      Wholesale Trade                            2,843             225    7.91%          797,856       92,727  11.62%            -3.71%




                                             Sector - Woman-Owned Dollars *
                                                      Postal Service                   National Business Demographics
                                                                                                       TOTAL
                                                             TOTAL                     TOTAL           WOMAN                   DELTA
                                             TOTAL          WOMAN       PERCENT      SUPPLIER $       SUPPLIER PERCENT        PERCENT
      SECTOR                              SUPPLIER $       SUPPLIER $    WOMAN          (000)          $ (000)    WOMAN        WOMAN
      Construction                        $1,796,318,480    $72,941,294    4.06%      $944,154,542    $67,632,059   7.16%        -3.10%
      Manufacturing                         $935,425,732    $29,133,359    3.11%    $4,021,515,429   $113,722,304   2.83%         0.29%
      Retail Trade                          $104,117,148     $6,633,709    6.37%    $2,649,085,229   $152,041,311   5.74%         0.63%
      Services                            $1,769,164,662    $44,761,675    2.53%    $2,614,964,642   $186,161,274   7.12%        -4.59%
      Transportation & Public Utilities   $2,206,686,310    $69,056,956    3.13%    $1,183,669,281    $32,944,160   2.78%         0.35%
      Wholesale Trade                     $1,378,819,794    $45,289,705    3.28%    $4,270,041,314   $188,488,639   4.41%        -1.13%




                                          Sector - Woman-Owned Suppliers *
                                                     Postal Service                   National Business Demographics
                                                           TOTAL                                    TOTAL                      DELTA
                                            TOTAL         WOMAN        PERCENT        TOTAL         WOMAN      PERCENT        PERCENT
      SECTOR                              SUPPLIER #    SUPPLIER #      WOMAN       SUPPLIER #    SUPPLIER # WOMAN             WOMAN
      Construction                               8,463             331    3.91%        2,333,424       157,173     6.74%         -2.82%
      Manufacturing                              1,407             122    8.67%          688,782       121,108   17.58%          -8.91%
      Retail Trade                                  22               2    9.09%        2,889,041       919,990   31.84%         -22.75%
      Services                                   4,899             849   17.33%        8,891,023     2,981,266   33.53%         -16.20%
      Transportation & Public Utilities          2,923             910   31.13%          919,570       128,999   14.03%          17.10%
      Wholesale Trade                            2,843             295   10.38%          797,856       125,645   15.75%          -5.37%


* The Industrial Sector analyses do not include categories Agriculture, Finance, and Not Classified.




                                                                     19
                                                           Restricted Information
Postal Service Supplier Demographics                            CA-MA-02-001



                  APPENDIX F. MANAGEMENT’S COMMENTS




                                                 20
                                       Restricted Information
Postal Service Supplier Demographics                            CA-MA-02-001




                                                 21
                                       Restricted Information
Postal Service Supplier Demographics                            CA-MA-02-001




                                                 22
                                       Restricted Information
Postal Service Supplier Demographics                            CA-MA-02-001




                                                 23
                                       Restricted Information
Postal Service Supplier Demographics                            CA-MA-02-001




                                                 24
                                       Restricted Information
Postal Service Supplier Demographics                            CA-MA-02-001




                                                 25
                                       Restricted Information
Postal Service Supplier Demographics                            CA-MA-02-001




                                                 26
                                       Restricted Information
Postal Service Supplier Demographics                            CA-MA-02-001




                                                 27
                                       Restricted Information
Postal Service Supplier Demographics                            CA-MA-02-001




                                                 28
                                       Restricted Information
